   ON-DEMAND OPERATORS HAVE LESS
 STRINGENT SAFETY REQUIREMENTS AND
OVERSIGHT THAN LARGE COMMERCIAL AIR
             CARRIERS
        Federal Aviation Administration
         Report Number: AV-2009-066
          Date Issued: July 13, 2009
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: On-Demand Operators                              Date:    July 13, 2009
           Have Less Stringent Safety Requirements and
           Oversight Than Large Commercial Carriers
           Federal Aviation Administration
           Report Number AV-2009-066

  From:    Ann Calvaresi-Barr                                    Reply to
                                                                 Attn. of:   JA-1
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Federal Aviation Administrator

           At the request of the Chairmen of the House Committee on Transportation and
           Infrastructure and the House Subcommittee on Aviation, we reviewed the Federal
           Aviation Administration’s (FAA) oversight of on-demand aircraft operators.
           Their request was prompted by concerns with disparate regulatory requirements
           between large commercial and on-demand operators and the level of FAA
           oversight of on-demand operators.

           Our audit objectives were to (1) evaluate the differences between FAA regulation
           and oversight for on-demand operators and larger, commercial air carriers and
           (2) identify specific issues that may hinder FAA’s oversight of on-demand
           operators.

           This is the first of two reports and focuses solely on objective 1. Our second
           report, which addresses objective 2, will be issued later this year. We conducted
           this performance audit from September 2007 to March 2009 in accordance with
           generally accepted government auditing standards prescribed by the Comptroller
           General of the United States. We included such tests as considered necessary to
           provide reasonable assurance of detecting abuse or illegal acts. Exhibit A details
           our scope and methodology. Exhibit B lists the entities we visited or contacted.
                                                                                                                 2




BACKGROUND
FAA has three tiers of aviation oversight conducted under three primary
regulations: (1) private owner operations regulated under Part 91; (2) small,
commercial operators flying primarily on-demand service regulated under Part
135; and (3) large, commercial operators regulated under Part 121. These three
industry segments, discussed below, have unique operating environments and
serve very different markets.

Private (General) Aviation (Part 91) 1
This group is comprised of individuals or private businesses that usually fly
smaller aircraft that are not for hire. These operators have the least restrictive
regulations and receive the least FAA oversight.

Small Commercial Aviation: On-Demand/For-Hire (Part 135) 2
This group operates smaller aircraft that are configured for 30 passengers or less
or under 7,500 pounds of payload. Most of these operators fly on-demand (i.e., at
                          the request of their customers). 3         The operators
                          comprising the on-demand industry segment can range
                          from a company with 1 pilot and 1 aircraft to a company
                          with over 600 aircraft. On-demand aircraft range from
                          small, 2-seat piston engine aircraft to helicopters to
                          turboprops and jets with 10 or more seats. The operations
may include short flights to small regional airports, cross-country domestic flights,
or international flights.

The on-demand segment of the aviation industry consists of unscheduled
passenger service, cargo operations, air tour (e.g., commercial sightseeing), and air
medical (e.g., air ambulance, rescue, human organ transportation, and emergency
medical services). However, the majority of operations within this segment are
conducted for passenger and cargo services. For example, in 2007, passenger and
cargo operations accounted for 83 percent of the on-demand aircraft used and
77 percent of the flight hours for Part 135 on-demand operations. While operators
in this group receive more oversight than those in the Private Aviation group, they
do not receive the level of oversight that FAA provides for large, commercial air
carriers.

1
    14 CFR § 91, General Operating and Flight Rules.
2
    14 CFR § 135, On-Demand, Operating Requirements: Commuter and On Demand Operations and Rules Governing
    Persons On Board Such Aircraft. 14 CFR § 119, Certification: Air Carriers and Commercial Operators, and some of
    the requirements of Part 91 also pertain to on-demand operators and commercial air carriers.
3
    Commuter operators, which conduct scheduled operations using aircraft with nine or fewer passenger seats,
    comprise only 3 percent of Part 135 operators and were not included in our review.
                                                                                                           3


Large Commercial Aviation (Part 121) 4
These carriers operate larger aircraft with primarily scheduled flights. FAA’s
commercial aviation safety record cites data for Part 121 carriers; on-demand
accident statistics are not included. Because these air carriers generally fly the
largest aircraft and carry the most passengers, they have the most stringent
regulations and receive the most FAA oversight. FAA principal inspectors are
usually responsible for only one large, commercial air carrier. Table 1 highlights
major distinctions between on-demand and larger, commercial air carriers.
         Table 1. Differences Between On-Demand and Commercial Air Carrier
                                       Operations
       Characteristic         On-Demand Operators      Commercial Air Carriers*
    Function             Unscheduled, 30 passengers Primarily scheduled passengers
                         or less                    and cargo
    Sector Size          Over 2,300 operators       Less than 120 carriers
    Number of Aircraft   Over 9,000                 Over 7,400
    Aircraft Type              Helicopters, single and double-           Airplanes only—almost all
                               engine airplanes, jets,                   multi-engine jets or turboprops
                               turboprops, and float planes
    Number of                  Unknown                                   753 million
    Passengers in 2008
    Flight Hours in 2008       3.67 million (FAA estimate)               19.35 million
    Airports                   About 5,000, both large and               About 500, primary and
                               small public                              commercial service
* Part 121 commercial air carriers


RESULTS IN BRIEF
On-demand operators have more risk in their operating environments and receive
less oversight from FAA. For example, one on-demand operator we visited flew
dozens of flights daily during the summer to take tourists to glaciers on which the
aircraft landed and took off on skis. This operator flies 17 aircraft and was
inspected 8 times by FAA in 2008. In contrast, a Part 121 operator with
10 aircraft, overseen by the same FAA oversight office, received 199 inspections
in 2008. Industry and the National Transportation Safety Board (NTSB) have
made recommendations to strengthen on-demand regulations. While FAA has
made efforts to improve safety and adapt its oversight to the increased complexity
of industry operations, it has not taken substantive action to address these
recommendations. Further, FAA does not effectively target inspections to higher-
risk on-demand operators. The number of fatalities from on-demand operations
makes it imperative that FAA take action to address three issues we identified as it
plans regulatory and oversight changes for the growing on-demand operator
industry.

4
    14 CFR § 121, Operating Requirements: Domestic, Flag, and Supplemental Operations.
                                                                                                  4


     Weaker Safety-Related Regulatory Requirements: On-demand operators
      do not have to meet many of the regulatory requirements that large,
      commercial air carriers must follow. These differences can impact the safety
      of on-demand flight operations. For example, on-demand regulations allow
      lower minimum pilot experience for flight crews than commercial air carriers.
      Further, commercial aircraft must have ground proximity warning systems and
      traffic alert and collision avoidance systems, but not all on-demand operators
      are required to have this advanced equipment. Maintenance inspection
      requirements are also less restrictive for smaller on-demand aircraft. Although
      on-demand operator regulations are less restrictive, FAA has not implemented
      recommendations made by its Aviation Rulemaking Committee (ARC) in 2005
      that would strengthen the regulations. FAA also has not addressed 16 NTSB
      recommendations, some of which parallel the ARC recommendations.

     High-Risk Operating Environment: On-demand operators generally have
      more risk factors in their operations and environment than commercial air
      carriers. For example, they operate shorter flights and generally perform more
      frequent take-offs and landings than larger air carriers, which are the most
      dangerous parts of flight. Further, these operations typically involve small
      airports without air traffic control towers or emergency equipment and flight
      crews who are often less familiar with their destination airports. These flights
      are therefore more vulnerable to terrain and weather obstacles. In 2007 and
      2008, commercial air carriers had zero passenger deaths although they flew
      significantly more hours than on-demand operators. 5 In contrast, during that
      same period, there were 33 fatal on-demand accidents, resulting in 109 deaths. 6
      Given these risk factors and the diversity of on-demand operators, targeted,
      risk-based oversight from FAA is a critical issue.

     Absence of a Risk-Based Oversight Strategy: FAA oversight of on-demand
      operators is based on compliance with regulations rather than where risk
      dictates. Conversely, FAA oversight of large, commercial air carriers is based
      on risk assessments. Prioritizing inspections based on areas of highest risk is
      essential for the efficient use of inspection staff and resources. FAA is
      developing a new risk-based oversight approach for on-demand operators;
      however, this new system is not scheduled for full deployment for at least
      4 years. In the interim, FAA has decided not to pursue two prioritization
      systems for safety oversight of on-demand operators, which have already been
      successfully piloted in some regions.

This report makes a number of recommendations focusing on actions FAA needs
to take to enhance safety and oversight of on-demand operators.

5
    Commercial air carriers flew five times more flight hours in 2007 than on-demand operators.
6
    This is the total for all on-demand operators, including air ambulance and cargo.
                                                                                                                   5


FINDINGS
On-Demand Operators Have Less Stringent Safety Regulations Than
Commercial Operators
The on-demand industry has changed significantly in the past 30 years. For
example, the use of jet aircraft is now very common, and operators fly more
complex operations and international flights. However, FAA has not revised its
regulations for on-demand operators to keep pace with these changes; many of the
Part 135 provisions have not been updated since 1978. One result is that current
requirements for maintenance focus on the number of passenger seats rather than
the risk factors in an aircraft’s operating environment. As shown in table 2 below,
regulations for on-demand operators are also far less rigorous than those for large,
commercial carriers in key areas, such as flight crew requirements, aircraft
equipment, and maintenance inspections. In addition, on-demand operators with
aircraft seating 9 or fewer passengers have even less stringent maintenance
regulations than on-demand operators flying aircraft with 10 or more seats.

               Table 2. Regulatory Differences Between Parts 135 and 121
             Subject                                           Part 135                           Part 121
         Pilot Duty/Rest
Maximum Yearly Flight Hours                                      1,400                              1,000
Maximum Flight Hours in 24-Hr. period                          10 hours                            8 hours
        Personnel Requirements
                                                                                            1,500 hours and Air
Minimum Pilot Experience/Hours                   500 hours and commercial license
                                                                                             Transport license
Crew Resource Management Training                            Not Required                         Required
FAA-Licensed Dispatcher                                      Not Required                         Required
              Maintenance
Aging Airplane - Operator
                                                    Not Required for all operators                Required
Supplemental Inspections
Aging Airplane - FAA Inspection and
                                                    Not Required for all operators                Required
Records Review
Maintenance program that includes
required inspection items and continuous            Not Required for all operators                Required
analysis and surveillance system
      Aircraft Flight Instruments
Terrain Awareness and Warning System                Not Required for all operators                Required
Traffic Alert & Collision Avoidance
                                                    Not Required for all operators                Required
System
Cockpit Voice/Data Recorders                        Not Required for all operators                Required
In-Flight Weather Radar                             Not Required for all operators                Required
Note: Depending on the size and type of aircraft used, FAA regulations for on-demand operations can be more or
less restrictive. This table contains the least restrictive regulations for on-demand aircraft for each subject.
                                                                                  6


The following discussion further details key regulatory differences and how they
impact operations and flight safety.

Regulatory Differences in Crew and Personnel Requirements
Crew Resource Management (CRM) training is not required for on-demand
operators. While not required for on-demand operators, large, commercial air
carriers and scheduled Part 135 operators (commuter) are required to train pilots in
CRM. This training focuses on leadership and decision making in the cockpit.
However, scheduled, commuter operations account for only 3 percent of total Part
135 operations; therefore, the majority of Part 135 demand operators (who fly
non-scheduled) are not required to have CRM training. CRM for on-demand
operators is one of the NTSB’s six most wanted aviation safety improvements.

The NTSB determined that the following fatal, on-demand aviation accidents were
caused by crew errors and concluded that an effective CRM program might have
prevented them:

  2001 accident in Colorado, resulting in 18 deaths
  2002 accident in Minnesota, resulting in 8 deaths
  2004 accident in Colorado, resulting in 3 deaths

Specifically, the flight crew in the fatal 2004 Colorado crash did not de-ice their
aircraft in winter weather and attempted to take off from a runway that was too
short for the conditions. The NTSB noted that formal CRM training might have
assisted the captain by directing crew attention to the hazards posed by the
weather, reinforced his awareness of the importance of complying with company
procedures, and promoted more effective crew coordination. The NTSB also
concluded that formal CRM training for the recently hired first officer might have
reinforced the company’s policy that he was authorized to question the captain’s
decisions and actions.

FAA issued a Notice of Proposed Rulemaking on May 1, 2009, to require CRM
training for all Part 135 crew members. However, industry comments are not due
until the end of July. Even when the rule goes final, which can take years, FAA
has proposed a 2-year implementation period. As a result, we have retained this
issue in our report and will continue to monitor the CRM rulemaking process.

Safety training is not required for cabin attendants on smaller aircraft.
Operators of larger, on-demand aircraft may use cabin aides or customer service
                                                                                                    7


representatives to serve food and drinks, but these employees are not required to
receive safety training if the aircraft carries 19 or fewer passengers. 7

A February 2005 accident in Teterboro, New Jersey, demonstrated the value of
flight attendant training and the potential impact to flight safety. An on-demand
passenger jet crashed on take-off, which caused 14 injuries—4 of them serious—
and destroyed the aircraft. The NTSB’s investigation found that not all passengers
were wearing their seatbelts when the take-off roll began, passengers did not
receive a safety briefing, and the cabin aide was not able to open the main cabin
door and conduct a professional evacuation. The NTSB concluded that the cabin
aide’s training did not adequately prepare her to perform her assigned duties. In
contrast, flight attendants on commercial air carriers must be able to perform an
emergency evacuation and be capable of using any emergency equipment installed
on the aircraft. The importance of this training was demonstrated in January 2009
when the flight attendants and crew of U.S. Airways Flight 1549 safely evacuated
all 150 passengers after an emergency landing in New York’s Hudson River.

Regulations for on-demand operators do not require dispatchers. On-demand
operators need only establish procedures for following and locating each flight so
they can quickly notify FAA or conduct search-and-rescue if an aircraft is overdue
or missing. This means that while on-demand operators must maintain flight
information (such as departure point and time, planned route, destination, and
estimated time en route) there is no requirement for the operator to remain in
contact with the air crew during flight. Conversely, commercial carriers are
required to have FAA-licensed flight dispatchers who monitor the progress of each
flight and provide the pilot-in-command with safety-of-flight information (e.g.,
adverse weather conditions, airport conditions, etc.) before and during the flight.
In addition, Part 121 dispatchers have the authority to delay, divert, or cancel a
flight at any time.

In reviewing fatal on-demand accident reports, we identified at least one tragedy
that might have been averted if a dispatcher’s “second set of eyes” had been
involved. In March 2001, an on-demand flight crashed on approach to Aspen
Airport killing all 18 passengers and crew. The NTSB investigation determined
that the pilot was under pressure from the charter customer to land at Aspen
because the customer was to host a dinner party later that evening. We believe the
participation of a dispatcher in the decision-making might have encouraged the
crew to reevaluate their attempt to land at Aspen given the deteriorating visibility
and missed approaches by three other planes.




7
    This is also true for the small number of Part 121 aircraft that seat 19 or fewer passengers.
                                                                                                             8


Regulatory Differences in Aging Aircraft Maintenance Requirements
Current FAA regulations do not require either FAA inspectors or operators to
perform aging aircraft inspections of aircraft used by on-demand operators. As a
result, FAA has no assurance that passengers on these aircraft have the same level
of safety as passengers on older commercial aircraft.

According to a 2005 FAA study, 8 60 percent of the on-demand passenger and
cargo fleet is over 20 years old. The average age of aircraft registered to the
22 on-demand operators we reviewed was 19 years old. Additionally, two of the
on-demand operators were flying eight aircraft that were more than 50 years old.
In contrast, the average age of the aircraft flown by the Part 121 air carriers is just
over 10 years. 9

Although the average age of commercial aircraft is lower than the on-demand
average, the 2005 Aging Airplane Safety Rule 10 requires FAA inspectors to
examine only Part 121 and Part 135 commuter operator records and aircraft after
14 years of service.        Inspectors must determine airworthiness directive
compliance, ensure timely replacement of all age-sensitive parts, and inspect for
cracks and corrosion. Most commercial air carriers are also required to do
additional inspections to examine airplane structures susceptible to fatigue
cracking that could contribute to a catastrophic failure. We believe a risk-based
surveillance system should require aging aircraft inspections based on the age of
the aircraft, without regard to the certificate-type of the operator.

Fewer Maintenance Requirements for Aircraft Seating Nine Passengers or
Less
                         Many of the maintenance regulations for on-demand
                         aircraft seating 10 or more passengers are similar to
                         those for commercial air carriers. However, regulations
                         for the maintenance of aircraft seating nine or fewer
                         passengers are less demanding, despite the fact that these
                         aircraft are involved in more fatal accidents. For
example, required inspection items (RII) and continuing analysis and surveillance
systems (CASS) are both required for on-demand aircraft seating 10 or more
passengers and for commercial air carriers, but not for on-demand aircraft seating
fewer passengers.



8
     Congress mandated this study in 2000. Report to Congress, Section 735 of the Wendell H. Ford Aviation
     Investment and Reform Act for the 21st Century, On-Demand Air Taxi Operators (ATO) Study, Federal Aviation
     Administration, undated (according to media coverage, the report was issued around January 2005).
9
     OIG calculated using 2007 air fleet age data from www.airsafe.com.
10
     70 Fed. Reg. 5518 (February 2, 2005).
                                                                                                                        9


      RIIs are mandatory maintenance activities that, due to their importance to the
       overall airworthiness of the aircraft, must be independently inspected by a
       specially trained inspector after the work is complete.
      Air carriers and operators implementing a CASS regularly review the
       performance and effectiveness of their maintenance and inspection programs
       and correct any identified deficiencies.

Because these additional requirements do not apply to aircraft with nine or fewer
seats, a large percentage of on-demand operators receive a lesser level of
inspection. Specifically, operators with these smaller aircraft make up more than
85 percent of total on-demand operators according to 2008 data from FAA’s
Safety Performance Analysis System (SPAS). 11

Despite the potential safety impacts of the regulatory differences discussed, FAA
has been slow to update or strengthen on-demand regulations. On-demand
operators stress that FAA must carefully weigh the safety benefits gained from
stronger regulatory requirements against the increased costs, which could
negatively impact operators and even drive smaller operators out of business.

FAA Has Not Implemented Recommended Actions To Strengthen Part 135
Regulations
In response to new technologies, new aircraft types, and changes in operating
environments, FAA formed an Aviation Rulemaking Committee, or ARC, in 2003
to review Part 135 regulations. The ARC and its subcommittees worked for more
than 2 years and submitted 124 recommendations to FAA in September 2005,
which provided a roadmap to improve safety and oversight of the on-demand
industry. However, more than 3 years after the ARC completed its work, FAA has
not issued any final rulemakings to address the recommendations resulting from
the ARC’s in-depth analysis of on-demand safety and operations.

FAA’s 135 Air Carrier Operations Branch (AFS-250), which evaluated the ARC
recommendations, provided us
                                   Table 3. Disposition of ARC Recommendations
with a summary of its disposition     Action Taken            Number of Items
of the ARC recommendations as
                                  Considering Rulemaking           32
of April 2009 (see table 3):      No Action                        16
                                                        Transferred to Other                           60
AFS-250 does not track the                              FAA Offices
progress of recommendations                             Deferred                                      11
transferred to other FAA offices                        Guidance Developed                             1
and therefore could not provide                         Under Discussion                               4
                                                         Total                                       124

11
     SPAS is a computer-based system that analyzes inspection and air carrier data to aid inspectors in identifying safety
     problems.
                                                                                   10


status information on 60 of the ARC recommendations. FAA plans to issue a
Notice of Proposed Rulemaking (NPRM) for Very Light Jets in October 2009,
which addresses one of the ARC’s recommendations. Three other rules, which
will address multiple ARC recommendations, are still under development.

In addition, we found that 16 NTSB recommendations resulting from on-demand
operator accident investigations (issued since June 2002) also remain open. For
example, the NTSB has been concerned about the safety effects of fatigue on
flight crews since 1989 and has recommended that operators set working-hour
limits for flight crews based on fatigue research. The ARC Subgroup on Flight,
Duty, and Rest noted that this is a particular issue for on-demand operators
because of “pop-up” flights (i.e., unplanned or unscheduled) that require the
operator to take off within a short period of time, making it difficult to ensure that
flight crews have received sufficient rest prior to flights.

Some ARC Subgroup members commented that the present FAA flight time/duty
time rules are a patchwork of regulations that have been developed over the past
50 or 60 years. Modern technology has decreased cockpit crew size and travel
times, while pilot and aircraft utilization have increased. These factors, in
combination with the old rules, have put additional pressures on flight crews.
Although the ARC Subgroup identified the need for changes, it was not able to
reach consensus on a specific flight duty and rest recommendation to FAA.
FAA’s most recent attempt to significantly update flight duty and rest rules was an
NPRM issued in December 1995, but no final regulations were issued.

Another key NTSB concern is reducing dangers to aircraft flying in icing
conditions; this has been on the NTSB’s Most Wanted Aviation Safety
Improvements list since 1997. FAA’s response to this issue has been classified as
“unacceptable” by the NTSB. The ARC recommended regulations for pilot
training to specifically include ice detection to reduce dangers applicable to on-
demand aircraft. This recommendation was related to the NTSB’s determination
that the 2004 fatal crash in Colorado occurred because the flight crew did not
properly de-ice the aircraft.        Table 4 below shows ARC and NTSB
recommendations to improve on-demand safety in these areas as well as crew
resource management and cabin safety.
                                                                                                           11



         Table 4. Examples of On-Demand ARC and NTSB Recommendations That
                               FAA Has Not Implemented
        ARC                       Proposal to FAA                           Similar NTSB                FAA
  Recommendation                                                         Recommendations
 (September 7, 2005)                                                   (Based on On-Demand
                                                                       Accident Investigations)
Flight Duty and Rest   Amend the flight, duty, and rest            Yes - NTSB Most Wanted (all       No NPRM
                       limitations to be more applicable to air    commercial operations) -          to date
                       carriers operating under on-demand.         Multiple Accidents/Fatalities
Icing Conditions       Regulations for pilot training to include   Yes (all commercial operations)   No NPRM
                       ice detection in order to reduce dangers    - Accident: Dillingham, Alaska    to date
                       applicable to on-demand aircraft.           Fatalities (10)
Crew Resource          Require on-demand dual-pilot on-            Yes - NTSB Most Wanted            NPRM
Management (CRM)       demand operations to establish an           Accident: Montrose, Colorado      issued
                       FAA-approved CRM training program.          Fatalities (3),                   May 1, 2009
                                                                   Serious Injuries (3)
Cabin Safety           Create two categories of                    Yes                               No NPRM
                       crewmembers that are assigned cabin         Teterboro, New Jersey             to date
                       duties: Cabin Safety Crewmember             Serious Injuries (4)
                       and Passenger Service Specialist.


  NTSB investigations of multiple on-demand accidents resulted in additional
  recommendations for FAA that would also strengthen Part 135 regulations in other
  areas, such as requiring cockpit voice recorders in the aircraft as is required for
  commercial aircraft. The NTSB also recommended required data reporting for on-
  demand operators in August 2003 so that accurate accident rates can be calculated,
  which is vital to identifying and prioritizing risk. The on-demand reporting would
  be much less detailed than the data currently filed by commercial carriers. These
  recommendations also remain open. During our review, FAA managers and
  inspectors providing on-demand oversight expressed frustration with the outdated
  regulations.

  On-Demand Operators Have More Inherent Risks in Their Operations
  and More Fatal Accidents Than Commercial Operators
  Commercial air carriers and on-demand operators serve divergent markets with
  very different equipment and operating environments. Both industry and FAA
  agree that on-demand operators have more risk factors in their operating
  environment than commercial air carriers (see table 5 below).
                                                                                                                       12


        Table 5. Basic Risk Factors for On-Demand and Commercial Operators
          Risk Factor                On-Demand                 Commercial
     Operations            Have more take-offs and    Have longer flights and
                           landings per aircraft      therefore fewer take-offs and
                                                      landings

     Communications                    Fly to airports without ATC                Have ATC support
                                       towers
     Crew                              Have pilots who may be                     Have more experienced pilots.
                                       unfamiliar with route. Cabin               Flight attendants on large
                                       attendants on smaller aircraft             aircraft are required to have
                                       have no safety training                    safety/emergency training.
                                       requirements.
     Aircraft Limitations              Have smaller aircraft susceptible          Have jet aircraft that can fly
                                       to weather with less advanced              “above weather” at high
                                       electronics                                altitudes; advanced
                                                                                  electronics required

These risk factors are inherent in on-demand operations as they include more
frequent take-offs and landings, flights into small airports without towers or
emergency equipment, and crews and pilots who may be unfamiliar with
destination airports. 12 For example:

      On-demand operators in southern Florida frequently fly tourists to the
       Bahamas, where only 4 of the approximately 30 airports have air traffic control
       towers.

      More than half of the flights completed by two Portland, Maine, operators we
       visited were into non-towered airports. Conversely, commercial flights have
       more experienced pilots flying scheduled passenger operations into familiar,
       FAA-certificated airports with air traffic control facilities and emergency
       equipment.

In addition, on-demand operators fly many aircraft types and models—helicopters,
single-engine airplanes, turbine-powered airplanes, and float planes.        We
determined that the 22 operators we reviewed had 321 registered aircraft
comprised of 65 different makes/models, from small Cessnas to Gulfstream jets
and Sikorsky helicopters. Because they fly at lower altitudes, on-demand aircraft
are more vulnerable to sudden weather changes or other obstacles. We note that
the high-end jet aircraft flown by some on-demand operators have the same
advanced electronics as commercial aircraft. Many of the smaller operators,
however, still have very basic equipment in their cockpits. Conversely,

12
     Part 121 Supplemental Operators also fly on-demand. However, after reviewing 2008 data on flight hours for Part
     121 air carriers, we concluded that the supplemental operators are not a significant portion of the Part 121 universe.
     Specifically, unscheduled Part 121 carriers (supplemental) flew only 3 percent of the total Part 121 hours flown in
     that year.
                                                                                                                   13


commercial air carriers predominately operate jet aircraft at high altitudes, well
above any terrain or weather obstacles. All of these aircraft have advanced
electronics, such as ground proximity warning and traffic alert and collision
avoidance systems, and they fly into airports with air traffic control towers.

Higher risks have translated into more fatal accidents for on-demand operators.
NTSB statistics show major differences in the accident rates between commercial
carriers and on-demand operators. Between 2000 and 2008, the fatal accident rate
for on-demand operators was 50 times higher than that of commercial carriers (see
figure below). 13 Since January 2003, on-demand operators have been involved in
95 fatal accidents, which resulted in 249 deaths. We note that on-demand
operators utilizing jet aircraft accounted for only 5 of the fatal accidents and 22 of
the fatalities.

                                        Figure. Fatal Accident Rates for On-Demand Operators and
                                         Commercial Carriers, Fiscal Year 2000 to Fiscal Year 2008

                                  0.8
                                  0.7
                                  0.6
     (per 100,000 flight hours)
       Fatal Accident Rate




                                  0.5
                                  0.4
                                  0.3
                                  0.2
                                  0.1
                                  0.0
                                        2000    2001   2002   2003   2004    2005   2006     2007      2008
                                                                     Year                           On-Demand
                                                                                                    Commercial

The most fatalities for the period 2003 through 2008 occurred in the states of
Alaska and Hawaii and in the Gulf of Mexico (see map of fatal crash locations at
exhibit C). In both Alaska and Hawaii, air tours are common, and small planes are
a major source of transportation for people and cargo. In addition, there are
numerous helicopter operations in the Gulf of Mexico delivering crews and
supplies to oil rigs.


13
     As discussed previously, on-demand accident rates are estimated because FAA does not require operators to report
     annual operational data. The NTSB accident rate is calculated using accidents per 100,000 flight hours. The flight
     hours for on-demand are projected from a voluntary annual general aviation survey.
                                                                                14


FAA Lacks a Risk-Based Oversight Strategy for On-Demand
Operators
FAA does not have a risk-based oversight system for on-demand operators even
though the number and diversity of on-demand operators and the number of fatal
accidents warrant this type of oversight strategy. FAA began developing the risk-
based, data-driven Air Transportation Oversight System (ATOS) in 1998 to
oversee all commercial air carriers. Oversight of on-demand operators, however,
is primarily based on required, pre-determined inspection items assigned to
inspectors on a nationwide basis. These items are focused on compliance with
regulations rather than where risk dictates. FAA has elected not to implement
pilot programs of two nationwide oversight prioritization systems for on-demand
operators. Instead, FAA plans to wait until its new risk-based oversight approach
for on-demand operators is fully developed; however, this system will not be
ready for at least 4 years.

FAA Uses ATOS To Oversee Part 121 Air Carriers
ATOS is FAA’s primary tool for overseeing commercial air carriers. The
emphasis in ATOS is on the airline’s ability to maintain a safe process and to
correct any identified deficiencies. ATOS provides risk assessment tools instead
of the less rigorous, conventional surveillance work program inspections. An air
carrier’s principal inspectors use data analysis to develop a safety surveillance
plan, which is adjusted periodically based on identified risks.

National Program Guidelines for Oversight of On-Demand Operators Are
Not Risk Based
FAA uses the National Program Guidelines (NPG) to assign required inspections
(R-items, based on oversight issues identified at the national level) to on-demand
inspectors. These are assigned using a national database of basic operator
information and without considering operator risk factors. Inspectors must
complete all R-items and may add other inspections to their work plan (planned or
P-items) for operators that they feel need additional oversight. However, some of
the inspectors we spoke with did not complete P-items because they only had time
to complete the R-items on their programs.

Although the NPG use the terms “risk,” “risk-based,” and “risk management,” the
inspections required by the NPG are not risk-based. Instead, inspectors are
required to do designated inspections for all or a percentage of their regional on-
demand operators. For example, operations inspectors must conduct a ramp
inspection on a minimum of 10 percent (minimum of 25 percent for Alaska
region) of all on-demand operators that are certificated within their region.
Surveillance of these operators must be rotated from year to year, meaning an
operator could receive a ramp inspection from an operations inspector as seldom
                                                                                   15


as once every 10 years. Also, they must conduct a Manual/Procedures,
Crew/Dispatcher Records, and Trip Records inspection for each on-demand
operator, regardless of operator risk factors.

Further, even though the smallest operators and aircraft have more fatal accidents,
they are assigned fewer required inspections by the NPG. We found that
78 percent of all fatal on-demand accidents between 2003 and 2008 involved
aircraft seating 9 or fewer passengers. Yet, the NPG require inspections for
aircraft seating 10 or more passengers that are not required for aircraft seating 9 or
less. Single-engine aircraft and single-pilot operators have even fewer required
inspections than operators categorized as 9 or fewer seats.

The inspectors we interviewed did not use SPAS for safety or risk assessments,
even though the system has some tools to identify potential safety issues and risk
factors. Most inspectors did not believe the existing data, guidance, or procedures
were useful in analyzing risks for their on-demand operators. Instead, they
determined what needed to be inspected based on general perceptions or their
experience with the operators. However, we do not believe this approach is
sufficient to safely oversee these operators. The number of on-demand operators
and other inspection responsibilities, coupled with the high inspector turnover rate
at the Flight Standards District Offices (FSDO) we visited, makes this informal
approach to FAA oversight problematic.

FAA Lacks an Interim Strategy for Risk-Based Oversight
FAA plans to wait until its new risk-based oversight approach, System Approach
for Safety Oversight (SASO), is developed rather than implement any interim,
nationwide oversight prioritization processes for on-demand operators. A key
requirement of SASO is a risk-based allocation system that applies inspector
resources to the areas of highest risk. When it is fully implemented, SASO will
become a functional subset of ATOS. However, SASO is in the early stages of
development for on-demand operators. FAA does not expect to implement SASO
until at least 2013.

Further, FAA has decided not to implement the following two oversight
prioritization systems for on-demand operators, which have already been
successfully piloted in some regions:

  The Surveillance Priority Index (SPI) was developed in Alaska to assist
   inspectors in prioritizing surveillance of on-demand operators. SPI provides a
   ranked order based on risk factors identified in both the SPAS databases and
   principal inspectors’ surveillance and assessment of their operators. The SPAS
   data used include accidents, incidents, violations, and average surveillance per
   aircraft. Inspectors’ assessment factors can include rapid expansion and non-
                                                                                                              16


       compliant attitude. An SPI score is available in SPAS for all on-demand
       operators, but few of the inspectors we interviewed used the SPI to prioritize
       surveillance. At the first 3 FSDOs we visited, only 1 of the 23 inspectors we
       interviewed had any knowledge of SPI.

      The Surveillance and Evaluation Program (SEP) was added to the NPG in
       2002 to incorporate risk assessment principles into oversight of commercial
       carriers not yet under the ATOS system. According to FAA managers, seven
       FSDOs 14 voluntarily use SEP to perform oversight of on-demand operators.


CONCLUSION
Despite experiencing a fatal accident rate 50 times higher than commercial air
carriers, on-demand operators have less restrictive regulations and oversight than
commercial carriers. Many of the regulations for on-demand operators have not
been updated to address changes in the industry since 1978. On-demand flights
are also conducted in a higher-risk environment than flights of scheduled air
carrier operations. For example, on-demand operators fly at lower altitudes, use
unfamiliar airports, and conduct more frequent take-offs and landings. In addition,
FAA has no near-term plans to implement a risk-based oversight system for on-
demand operators similar to the ATOS system used for commercial air carriers.
These differences may all be contributing factors to the higher fatal accident rate
for this segment of the industry. FAA’s lack of attention to the issues addressed in
this report negatively impacts safety and potentially puts travelers at risk.


RECOMMENDATIONS
We recommend that FAA revise outdated regulations and strengthen its oversight
of on-demand operators by:

     1. Establishing milestones to track the implementation of recommendations
        made by the ARC and the NTSB that would enhance the safety and oversight
        of on-demand operators and reporting annually on progress toward those
        milestones to the Office of Inspector General.

     2. Implementing an interim risk assessment oversight process for on-demand
        operators until the risk-based SASO approach is implemented.

     3. Considering the inherent operational risk factors in on-demand operations in
        developing risk indicators for the new risk-based Part 135 oversight system.

14
     Columbus, Ohio; Baton Rouge, Louisiana; Allegheny, Pennsylvania; Honolulu, Hawaii; Juneau, Alaska; Fairbanks,
     Alaska; and Anchorage, Alaska.
                                                                            17


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on May 27, 2009, and received its
response on June 26, 2009. FAA concurred with all three of our recommendations
and provided appropriate planned actions and target completion dates. FAA’s
response is included in its entirety in the appendix to this report.


ACTIONS REQUIRED
We consider all three recommendations addressed pending completion of FAA’s
proposed actions. We appreciate the courtesies and cooperation of FAA
representatives, on-demand industry groups, and operators during this audit. If
you have any questions concerning this report, please contact me at
(202) 366-1427 or Tina Nysted, Program Director, at (404) 562-3770.

                                       #

cc: FAA Associate Administrator for Aviation Safety
    Director, Flight Standards Service
    Martin Gertel, M-100
    Anthony Williams, ABU-100
                                                                                                                    18


EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY
Our audit objective was to evaluate the differences between FAA regulations and
oversight for on-demand operators versus larger commercial air carriers. We
conducted this audit between September 2007 and March 2009 in accordance with
government auditing standards prescribed by the Comptroller General of the
United States and included such tests as necessary to provide reasonable assurance
of detecting abuse or illegal acts.

We reviewed data for the period January 2003 to December 2008. One exception
was that we used NTSB accident rate data going back to 2000 to better establish
the trend. To gather information for our evaluation, we visited FAA Headquarters
and five Flight Standards District Offices (FSDOs). At the FSDOs, we
interviewed managers, supervisors, and inspectors and reviewed files and
documents related to inspector assignments, work plans, and training and on-
demand operator oversight. We also visited or met with 22 on-demand operators
to obtain data. In addition, we met with officials from the NTSB, the safety
inspectors union, and five on-demand industry groups. Exhibit B lists the entities
we contacted or visited during our review.

We omitted commuter operators from our review because they comprise only
3 percent of total on-demand operators and have more restrictive regulations and
fewer fatal accidents. We also eliminated two other aviation sectors from our
work because they have been the focus of recent or current reviews by other
entities. Specifically, we did not include air medical operations because the NTSB
issued a special investigation report in January 2006 on emergency medical
services helicopter operations. 15 We also excluded all-cargo operators because of
their small number and because the Government Accountability Office initiated an
audit of air cargo safety in December 2007. This enabled us to focus on passenger
operations by air taxis and air tours.




15
     EMS Helicopter Operations: Special Investigative Report, January 2006, National Transportation Safety Board.




Exhibit A. Objectives, Scope, and Methodology
                                                                             19


EXHIBIT B. ENTITIES VISITED OR CONTACTED
FAA
Headquarters:
Aviation Safety (AVS)                        Washington, DC

Flight Standards District Offices:
Anchorage FSDO                               Anchorage, AK
Portland FSDO                                Portland, ME
Windsor Locks FSDO                           Windsor Locks, CT
South Florida FSDO                           Miami and Fort Lauderdale, FL
Van Nuys FSDO                                Van Nuys, CA

INDUSTRY GROUPS
Industry Associations
Air Charter Safety Foundation                Alexandria, VA
General Aviation Manufacturers Association   Washington, DC
National Air Transportation Association      Alexandria, VA
National Business Aviation Association       Washington, DC
Regional Airlines Association                Washington, DC
Other Stakeholders
National Transportation Safety Board         Washington, DC
Professional Airways Systems Specialists     Washington, DC

ON-DEMAND OPERATORS
Alaska Bush Float Plane Service              Talkeetna, AK
Aspen Helicopters                            Oxnard, CA
Associated Aircraft Group                    Danbury, CT
AVjet Aviation                               Burbank, CA
Biscayne Helicopters, Inc.                   Miami, FL
Channel Islands Aviation                     Camarillo, CA
Clay Lacey Aviation                          Van Nuys, CA
Evergreen Helicopters of Alaska              Anchorage, AK
Executive Air Charter of Boca Raton          Stuart, FL
(DBA: Fair Wind Air Charter)
Interstate Aviation, Inc.                    Plainville, CT


Exhibit B. Entities Visited or Contacted
                                                                    20


ON-DEMAND OPERATORS (CONT.)
JetLogistics, Inc.                            Raleigh, NC
K2 Aviation                                   Talkeetna, AK
Maine Instrument Flight                       Augusta, ME
NetJets International, Inc.                   East Granby, CT
Palm Beach Aviation                           West Palm Beach, FL
Presidential Aviation/Sentient Flight Group   Ft. Lauderdale, FL
Sentient Flight Group                         Weymouth, MA
The Air Group                                 Van Nuys, CA
Trail Ridge Air, Inc.                         Anchorage, AK
Twin Cities Air Services, LLC                 Auburn, ME
Universal Jet Aviation                        Boca Raton, FL
World Jet II                                  Ft. Lauderdale, FL




Exhibit B. Entities Visited or Contacted
                                                                                                                                                                                  21
EXHIBIT C. ON-DEMAND FATAL ACCIDENTS BY STATE
                                      MT (5) Fatalities                                                                             MICH (1) Fatality
          WA (13) Fatalities                                                 MN (8) Fatalities
                                                                                                       WIS (9) Fatalities                                         NH (1) Fatality

  ID (4) Fatalities                                                        IA (2) Fatalities
                                                                                                                                                                  MASS (3) Fatalities


                                                                                                                                                                     CT (2) Fatalities

                                                                                                                    OH (4) Fatalities
                               (5) Fatalities                                                                                                                        DE (2) Fatalities
  CA (6) Fatalities
                                                            (1) Fatality                                      (5)                                                    MD (1) Fatality

                                           (2) Fatalities                        (1) Fatality      (1) Fatality
                                                                                                          Fatalities
                                                                                                                                                                       DC (1) Fatality
                                                             (7) Fatalities
                                                                                                                                                                     TN (1) Fatality
                      AZ (14) Fatalities
                                                                                                                                         SC (8) Fatalities
                                                                                    (1) Fatality
                                                 NM (5) Fatalities


       AK (43) Fatalities                                                                                                                               (4) Fatalities Vega Baja, PR
                                                                   TX (17) Fatalities

                                                                                                   LA (10) Fatalities
                                                            HI (21) Fatalities

                                                                                                   (24) Fatalities Gulf of Mexico


                                                                                                                                                        (6) Fatalities Bamiyan,
                                                                                                                                                        Afghanistan

                                                                                                                                                        (7) Fatalities Tocumen, Panama

                                                                                                                                                        (6) Fatalities Mexico




Exhibit C. On-Demand Fatal Accidents by State
                                                                        22


EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                       Title

  Lou Dixon                  Assistant Inspector General
                              for Aviation and Special Program Audits

  Tina Nysted                Program Director

  Gloria Denmark             Project Manager

  Karen Thompson             Senior Analyst

  Curt Boettcher             Senior Analyst

  Manuel Ramos               Auditor

  Stefanie McCans            Analyst

  Taniesha Snell             Analyst

  Andrea Nossaman            Writer-Editor




Exhibit D. Major Contributors to This Report
                                                                                              23


APPENDIX. AGENCY COMMENTS


                    Federal Aviation
                    Administration

Memorandum
Date:          June 26, 2009
To:            Lou E. Dixon, Assistant Inspector General for Aviation and Special Program
               Audits
From:          Ramesh K. Punwani, Assistant Administrator for Financial Services/CFO
Prepared by: Cynthia A. Dominik, Acting AAE-2, x77560
Subject:       OIG Draft Report: On-Demand Operators Have Less Stringent Safety
               Requirements and Oversight than Large Commercial Air Carriers


Thank you for the opportunity to review and comment on the findings and recommendations of
the subject draft report dated May 27, 2009. The Federal Aviation Administration (FAA)
concurs with all three recommendations.

The following is FAA’s response to each of your recommendations:

OIG Recommendation 1: Establishing milestones to track the implementation of
recommendations made by the Aviation Rulemaking Committee and the National Transportation
Safety Board that would enhance the safety and oversight of on-demand operators and reporting
annually on progress toward those milestones to the Office of Inspector General.

FAA Response: Concur. Because some of the recommendations may have been overtaken by
events, the FAA will review the recommendations, determine which are still valid, and establish
a timeline for implementation by December 31, 2009.

Recommendation 2: Implementing an interim risk assessment oversight process for on-demand
operators until the risk-based SASO approach is implemented.

FAA Response: Concur. The surveillance requirements for on-demand operators in FAA Order
1800.56J, Flight Standards National Work Program Guidelines (NPG), are risk-based oversight
activities. By December 31, 2009, the FAA will review the current policy and its application,
and will make subsequent adjustments to reflect a risk-based oversight approach to surveillance
of on-demand operators.




Appendix. Agency Comments
                                                                                                  24


Recommendation 3: Considering the inherent operational risk factors in on-demand operation
in developing risk indicators for the new risk-based Part 135 oversight system.

FAA Response: Concur. By September 30, 2010, the FAA will identify the initial set of risk
indicators for part 135 on-demand operators which inspectors would use in a risk-based
surveillance system. The FAA will consider and incorporate the appropriate, inherent
operational risk factors in on-demand operations as it develops its risk-based Title 14 Code of
Federal Regulations part 135 oversight system scheduled for implementation in calendar year
2013.




Appendix. Agency Comments
